APPENDICES
Aqpperrdixl~09/r672019“ORDERGRANTlNG*MOTIONTOQUASH
Appendix 2- 04/27/2021 - REMITTUR
Appendix 3 - 02/03/2021 - ORDER DENYING PETITION FOR REHEARING
Appendix 4- 04/21/2021 - CALIFORNIA SUPREME COURT ORDER
Appendix 5 - 07/19/2021 - ORDER DENYING 170.6 CHALLENGE
Appendix 6 - 07/30/2021 - ORDER GRANTING 170.6 CHALLENGE
Appendix 7 - 07/15/2019 - ORDER OF REMAND
Appendix 8 - 06/18/2019 - ORDER GRANTING PERMISSION TO FILE
Appendix 9 - 09/16/2019 - REPORTER’S TRANSCRIPT
Appendix 10- 08/19/2019 - COMBINED OPPOSITION
Appendix 11 - 06/18/2020 - APPEAL BRIEF

25

-.ifc

APPENDIX 1
9/16/2019 ORDER GRANTING MOTION TO QUASH

.t

:l

SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division
Central District, Stanley Mosk Courthouse, Department 14
19STCV17949
MARCUS DANIEL SILVER vs BERTRAM SIEGEL, et aL

Judge: Honorable Teny Green .
Judicial Assistant: M. Ventura
Courtroom Assistant: P. Cortez

September 16, 2019
8:45 AM

CSR: Wil Wilcox, CSR#9178
ERM: None
Deputy Sheriff: None

APPEARANCES:
♦

For Plaintiff(s): Marcus Daniel Silver
For Defendants): David R. Singer

NATURE OF PROCEEDINGS: Hearing on Motion to Quash Service of SummonsHearing on Demurrer - with Motion to Strike (CCP 430.10);
Case Management Conference

Pursuant to Government Code sections 68086, 70044 and California Rules of Court, rule 2.956,
Wil Wilcox CSR#9178, certified shorthand reporter is appointed as an official Court reporter pro
tempore in these proceedings, and is ordered to comply with the terms of the Court Reporter
Agreement The Order is signed and filed this date.
*

The matters are called for hearing.
Court after reading and considering all moving party papers, makes the following ruling:
The Motion to Quash Service of Summons is GRANTED.
The Demurrer with Motion to Strike and Case Management Conference are taken off calendar.
The Court orders the Complaint filed by Marcus Daniel Silver on 05/22/2019 dismissed without
prejudice.
Any remaining court dates in this department are advanced to this date and vacated.
Clerk is to give notice.
Certificate of Mailing is attached.
Minute Order

Page 1 of 1

APPENDIX 2
04/27/2021 REMITTITUR

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
_______________DANIEL P. POTTER, CLERK___________
DIVISION 3

Los Angeles County Superior Court

MARCUS DANIEL SILVER.'
Plaintiff and Appellant,
v.
BERTRAM SIEGEL et al..
Defendants and Respondents.
B301917
Los Angeles County Super. Ct. No. 19STCV17949

rf

REMITTITUR ***
I, Daniel P. Potter, Clerk of the Court of Appeal of the State of California, for the
Second Appellate District, do hereby certify that the attached is a true and correct copy of
the original order, opinion or decision entered in the above-entitled cause on January 15,
_021 and that this order, opinion or decision has now become final
Defendants shall recover their costs on appeal

Witness my hand and the seal of the Court
affixed at my office this
Apr 27, 2021
DANIEL £. POTTER CLERK
y~i

&

o

by: Z.ClayteS*/W
Deputy ClQ-i
cc:

AH Counsel (With attachment)
File

€©§!¥ m APPEAL - §Si#I§ m.

FILED
DANIEL P, POTTER, Clerk

Filed 1/15/21

■ Deputy Cferi;

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(a). This opinion has
not been certified for publication or ordered published for purposes of rule 8.1115(a).

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION THREE
MARCUS DANIEL SILVER,
Plaintiff and Appellant.
v.

B301917
Los Angeles County
Super. Ct. No.
19STCV17949

BERTRAM SIEGEL et aL,
Defendants and Respondents.

APPEAL from an order of the Superior Court of Los
Angeles County, Terry Green, Judge. Affirmed.
Marcus Daniel Silver, in pro. per., for Plaintiff and
Appellant.
Jenner & Block, David R. Singer, AnnaMarie A. Van
Hoesen, and Camila A. Connolly for Defendants and
Respondents.

INTRODUCTION
Plaintiff and appellant Marcus Daniel Silver (plaintiff)
appeals from the trial court’s September 16, 2019 order granting
the motion to quash service of summons for lack of personal
jurisdiction brought by defendants and respondents Bertram
Siegel, Carole Siegel, David Siegel, and Two Sigma Investments,
LP (defendants).1 Plaintiff contends the trial court erred “in
interpreting and following relevant rules and laws, especially
regarding peremptory challenges and deadlines for filing
responses.”2 We affirm.

BACKGROUND
On May 22, 2019, plaintiff filed an unverified complaint in
the Superior Court of the State of California for the County of Los
Angeles. The complaint asserts claims for negligence, infliction of
emotional distress, fraud, and conspiracy to commit fraud against
defendants. The Siegels are plaintiffs relatives. David Siegel,
plaintiffs cousin, is a founding partner of Two Sigma
Investments; LP. Plaintiff sent defendants copies of the

' 1 Defendants’ unopposed motion to augment the record, filed on July 6,
2020, is granted.
2 Plaintiffs challenge to Judge Holly J. Fujie’s July 30, 2019 order
accepting defendants’ peremptory challenge under section 170.6 of ,the
Code of Civil Procedure is not properly before us. That ruling may be
reviewed only by a writ of mandate. (See In re Sheila B. (1993) 19
Cal.App.4th 187, 195.) Further, plaintiffs notice of appeal fisted only
the September 16, 2019 order. We therefore pass this contention
without further consideration.

2

complaint via “US Priority Mail.” This mailing did not include
any summons, which had not yet been issued by the court.
On May 30, 2019, plaintiff mailed defendants the following
documents: (1) copies of the complaint; (2) copies of the court’s
summons, dated May 30, 2019; (3) proof of service forms; and (4)
acknowledgement of receipt of summons forms. Plaintiff directed
these documents to defendants’ respective addresses in New
York. Plaintiff concedes the acknowledgment of receipt forms
were never returned, “arguably rendering service of the
Summons ineffective” until July 8, 2019, when defendants filed a
notice of removal.
On July 8, 2019, defendants removed the action to federal
court based on diversity jurisdiction. On July 9, 2019, the federal
court issued an order of remand, finding Two Sigma Investments,
LP had not included sufficient citizenship information about two
of its members. Accordingly, the case was remanded back to the
Superior Court.
On July 15, 2019, plaintiff filed a request for entry of
default in the Superior Court. On July 23, 2019, the Superior
Court denied plaintiffs request because a notice of removal to
federal court had been filed on July 8, 2019, there was a “[s]tay
on the case,” and the acknowledgment of receipt forms had not
been signed and dated by defendants or persons authorized to
accept service.
Meanwhile, on July 16, 2019, defendants filed a
peremptory challenge to the assigned judicial officer, Judge Fujie.
under section 170.6 of the Code of Civil Procedure.3 On July 19,
3 Undesignated statutory references are to the Code of Civil Procedure.

3

2019, the court denied the challenge, noting that the notice of
removal to federal court had been filed on July 8, 2019 and,
therefore, it has no jurisdiction over the case.
Because the Superior Court had not received the order of
remand from the federal court, on July 23, 2019 defendants filed
a Notice of Remand, and attached the federal court’s July 9, 2019
order of remand as an exhibit.
On July 26, 2019, defendants refiled the peremptory
challenge to Judge Fujie. On July 30, 2019, Judge Fujie issued a
minute order stating that defendants’ peremptory challenge “was
timely filed, in proper format, and is accepted.” The case was
reassigned to Judge Terry Green for all future proceedings.
On August 8, 2019, defendants filed a motion to quash
service of summons for lack of personal jurisdiction, supported by
five declarations. Defendants contended they are not subject to
general or specific jurisdiction in California. The Siegels maintain
their permanent residences in New York, where they are also
citizens. In addition, none of the individual defendants lives in
California, owns property in California, or maintains any
business presence in California. Two Sigma Investments, LP is a
limited partnership governed by the laws of Delaware, with its
primary place of business in New York; none of its partners are
citizens of California and it has no registered agents in
California. Defendants also concurrently filed a demurrer and
motion to strike punitive damages.
Plaintiff filed a combined opposition to the demurrer,
motion to strike, and motion to quash. He did not, however,
submit any evidence to support the exercise of personal
jurisdiction over defendants. Instead, he relied on his unverified
complaint.

4

On September 16, 2019, the court conducted a hearing on
the motions and demurrer. During the hearing the court stated,
“I don’t see any basis for jurisdiction in California.” The Court
further stated, “There is no evidence of contacts with California,
substantial or insubstantial,” and “there’s no evidence” of
purposeful availment. After hearing from both sides, the court
granted defendants’ motion to quash, took the demurrer and
motion to strike off calendar as moot, and dismissed the lawsuit.
DISCUSSION
The most fundamental rule of appellate review is that the
judgment or order challenged on appeal is presumed to be correct,
and “it is the appellant’s burden to affirmatively demonstrate
error.” (People v. Sanghera (2006) 139 Cal.App.4th 1567, 1573.)
“ ‘All intendments and presumptions are indulged to support it on
matters as to which the record is silent, and error must be
affirmatively shown.’ ” {Denham v. Superior Court (1970)
2 Cal.3d 557, 564.) To overcome this presumption, an appellant
must provide a record that allows for meaningful review of the
challenged order. {Ibid.)
In addition, parties must provide citations to the appellate
record directing the court to the supporting evidence for each
factual assertion contained in that party’s briefs. When an
opening brief fails to make appropriate references to the record to
support points urged on appeal, we may treat those points as
waived or forfeited. (See, e.g., Lonely Maiden Productions, LLC v.
GoldenTree Asset Management, LP{2011) 201 Cal.App.4th 368,
384; Dietz u. Meisenheimer & Herron (2009) 177 Cal.App.4th 771,
798—801 [several contentions on appeal “forfeited” because
appellant failed to provide a single record citation demonstrating
it raised those contentions at trial].) “Any statement in a brief

5

concerning matters in the appellate record—whether factual or
procedural and no matter where in the brief the reference to the
record occurs—must be supported by a citation to the record .”
(Eisenberg et al., Cal. Practice Guide: Civil Appeals and Writs
(The Rutter Group 2013) f 9:36, p. 9-12, citing Cal. Rules of
Court, rule 8.204(a)(1)(C).)
Further, “an appellant must present argument and
authorities on each point to which error is asserted or else the
issue is waived.” (Kurinij v. Hanna & Morton (1997) 55
Cal.App.4th 853, 867.) Matters not properly raised or that lack
adequate legal discussion will be deemed forfeited. (Keyes v.
Bowen (2010) 189 Cal.App.4th 647, 655-656.)
An appellant has the burden not only to show error but
prejudice from that error. (Cal. Const., art. VI, § 13.) If an
appellant fails to satisfy that burden, his argument will be
rejected on appeal. (Century Surety Co. v. Polisso (2006) 139
Cal.App.4th 922, 963.) “[W]e cannot presume prejudice and will
not reverse the judgment in the absence of an affirmative
showing there was a miscarriage of justice. [Citations.] Nor will
this court act as counsel for appellant by furnishing a legal
argument as to how the trial court’s ruling was prejudicial.
[Citations.]” (Ibid.)
Plaintiffs briefs are insufficient on a multitude of grounds.
Mainly, his briefs fail to include a single citation to the clerk’s
transcript. And to the extent his briefs contain citations to legal
authorities, plaintiff fails to develop his arguments by applying
those authorities to the facts in this case. (See City of Santa
Maria v. Adam (2012) 211 Cal.App.4th 266, 287 [“we may
disregard eonclusory arguments that are not supported by
pertinent legal authority or fail to disclose the reasoning by

6

which the appellant reached the conclusions he wants us to
adopt”].) Plaintiff, therefore, has forfeited all his contentions on
appeal. We nonetheless briefly address several of plaintiffs
arguments to the extent they are supported by citations to legal
authorities.
Plaintiff contends defendants should have filed the notice of
removal to federal court within 30 days of purportedly receiving
copies of the complaint by mail on May 24, 2019. As his sole
authority, plaintiff cites Michetti Pipe Stringing, Inc. v. Murphy
Bros. (11th Cir. 1997) 125 F.3d 1396, 1398, which is no longer
good law. In Michetti, the Eleventh Circuit held that the 30-day
removal period under 28 U.S.C. § 1146 “begins to rim when a
defendant actually receives a copy of a filed initial pleading by
any means.” The United States Supreme Court reversed,
however, holding that the time to remove “is triggered by
simultaneous service of the summons and complaint, or receipt of
the complaint, ‘through service or otherwise,’ after and apart
from service of the summons, but not by mere receipt of the
complaint unattended by any formal service.” (Murphy Bros. v.
Michetti Pipe Stringing, Inc. (1999) 526 U.S. 344, 347—348.) Thus,
defendants’ time to remove the case to federal court was not
triggered until they were formally served with the complaint and
summons.
Plaintiff also contends the motion to quash was not timely
filed after the federal court remanded the case back to the state
court. Section 430.90, subdivision (a)(1), provides 30 days to file a
motion to quash service of summons “from the day the original
court receives the case on remand.” Here, the federal court issued
its order remanding this case back to the Superior Court on July
9, 2019. Defendants filed the motion to quash thirty days later,

7

on August 8, 2019. Even if the Superior Court received the case
on remand on July 9, 2019—the very same day that the federal
court issued the order of remand—defendants timely filed their
motion.
Finally, plaintiff contends the motion to quash should have
been denied because defendants made numerous general
appearances thereby conceding to the state court’s jurisdiction.
Specifically, he argues that defendants made general
appearances by filing the notice of removal, filing a peremptory
challenge to Judge Fujie, and simultaneously filing the demurrer
and motion to strike with the motion to quash. We disagree.
First, filing a notice of removal cannot constitute a general
appearance because section 430.90 expressly provides time for a
defendant to bring a motion to quash service of summons
following a remand to state court. Accordingly, the time for
defendant to respond to the complaint commenced when the
federal court remanded the case. (§ 430.90, subd. (a)(2) [providing
30 days to respond to the complaint upon remand after removal].)
Put differently, the statute confirms that when a defendant
removes an action to federal court, the defendant does not waive
the right to later challenge the state court’s personal jurisdiction
over the defendant.
Second, it is well established that a party can file a
peremptory challenge under section 170.6 without making a
general appearance. (See La Seigneurie U.S. Holdings, Inc. v.
Superior Court (1994) 29 Cal.App.4th 1500, 1506; Loftin v.
Superior Court (1971) 19 Cal.App.3d 577, 578—579.)
Third, section 418.10, subdivision (e), expressly provides
that a defendant may make a motion to quash service of
summons for lack of jurisdiction and “simultaneously answer,

8

demur, or move to strike the complaint.” Section 418.10.
subdivision (e)(1), further provides, “[N]o act by a party who
makes a motion under this section, including filing an answer,
demurrer, or motion to strike constitutes an appearance, unless
the court denies the motion made under this section.” Thus, a
defendant “may raise objections to personal jurisdiction along
with any other defenses without being deemed to have waived
the jurisdictional objection.” (Roy v. Superior Court (2005) 127
Cal. App.4th 337, 342 [holding that defendants do not waive
jurisdictional arguments by concurrently filing a demurrer with
motion to quash].)
In sum, defendants did not concede to the Superior Court’s
jurisdiction.

9

DISPOSITION
The September 10, 2019 order is affirmed. Defendants shall
recover their costs on appeal.
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS

LAVIN, J.
WE CONCUR:

EDMON, P. J.

DHANIDINA, J.

10

i
APPENDIX 3
02/03/2021 ORDER DENYING PETITION FOR REHEARING

i

>■

<. • •

mwm m appeal - secpm ms?.

FILED
DANIEL P, POTTER, Cierfc
Deputy O.erk

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION THREE
MARCUS DANIEL SILVER,
Plaintiff and Appellant.

B301917
Los Angeles County Super.
Ct. No. 19STCV17949

v.
BERTRAM SIEGEL et al.,

Order Denying Petition
for Rehearing

Defendants and Respondents.

BY THE COURT: *
The petition for rehearing filed February 1, 2021 is denied.

ZdJftUTk—
* EDMON, P. J.

e
LAVTN, J.

DHANIDINA, J.

APPENDIX 4

4

04/21/2021 CALIFORNIA SUPREME COURT ORDER

»

*

i

\

ourrceivit: ouum

APR 2 1 2021
Court of Appeal, Second Appellate District, Division Three - No. B301917
Jorge Navarrete Clerk
S267150
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

MARCUS DANIEL SILVER, Plaintiff and Appellant,
v.

BERTRAM SIEGEL et al., Defendants and Respondents.
The petition for review is denied.

Kruger, J., was recused and did not participate.

ChiefJustice

r*

u.

V.

APPENDIX 5
07/19/2019 ORDER DENYING 1st PEREMPTORY CHALLENGE

SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division

Central District, Stanley Mosk Courthouse, Department 56
19STCV17949
MARCUS DANIEL SILVER vs BERTRAM SIEGEL, et al.

Judge: Honorable Holly J. Fujie
Judicial Assistant: O. Chavez/N. Marshalian
(JAT)
Courtroom Assistant: B. Chavez

July 19,2019
2:22 PM

CSR: None
ERM: None
Deputy Sheriff: None

APPEARANCES:
For Plaintifffs): No Appearances
For Defendants): No Appearances
S

Q-

co
CM
05

o
CM
05

O

NATURE OF PROCEEDINGS: Court Order re Defendant's 170.6
The Court notes that the Notice of Removal to Federal Court was filed July 8,2019.

u.

O
□C

UJ

o

Non-Appearance Case Review re Federal Court is scheduled for 10/17/2019 at 03:00 PM in
Department 56 at Stanley Mosk Courthouse.

<r

O
UJ
H-

3
Z
2

o
z

Defendant's 170.6 filed on July 16,2019 is denied.
The Court has no jurisdiction over this case. On the Court's own motion, the Case Management
Conference scheduled for 09/24/2019 is advanced to this date and vacated.

3

H
O

Certificate of Mailing is attached.

DC

a.

o
z
3
Z

UJ
UJ
CO

Minute Order

Page 1 of 1

t

1
APPENDIX 6
07/30/2019 ORDER GRANTING 2nd PEREMPTORY CHALLENGE

SUPERIOR COURT OF CALIFORNIA, COUNTY OF LOS ANGELES
Civil Division
Central District, Stanley Mosk Courthouse, Department 56
19STCV17949
MARCUS DANIEL SILVER vs BERTRAM SIEGEL, et al.

Judge: Honorable Holly J. Fujie
Judicial Assistant: O. Chavez
Courtroom Assistant: B. Chavez

July 30,2019
1:56 PM

CSR: None
ERM: None
Deputy Sheriff: None

APPEARANCES:
For Plaintiffs): No Appearances
For Defendants): No Appearances

NATURE OF PROCEEDINGS: Court Order Re: Defendant's 170.6
The Court reviews the Peremptory Challenge filed by Carole Siegel, (Defendant), David Siegel
(Defendant) , Two Sigma Investments lp (Defendant) and Bertram Siegel (Defendant) on
07/26/2019 pursuant to Code of Civil Procedure section 170.6 and finds that it was timely filed,
in proper format, and is accepted.
Good cause appearing and on order of the Court, the above matter is reassigned to Judge Terry
Green in Department 14 at the Stanley Mosk Courthouse for all further proceedings.
If any appearing party has not yet exercised a peremptory challenge under Code of Civil
Procedure section 170.6, peremptory challenges by them to the newly assigned judge must be
timely filed within the 15 day period specified in Code of Civil Procedure section 170.6, with
extensions of time pursuant to Code of Civil Procedure section 1013 if service is by mail.
Previously non-appearing parties, if any, have a 15-day statutory period from first appearance to
file a peremptory challenge (Government Code section 68616(1)).
All future hearings in this department are advanced to this date and taken off calendar.
Plaintiff is to give notice.
Certificate of Mailing is attached.

Minute Order

Page 1 of 1

’f

n
APPENDIX 7
07/15/2019 ORDER OF REMAND

*

.

United States District Court

&

w

4

Central District of California

Office of the Clerk

Jury K. Cray

Cristina M. Sqoieri Bullock
Cliief Deputy of Administration
350 West 1st Street. Suite 43! i
Los Angeles. CA 90012
Sara Tsc Soo Hoo
Chief Deputy of Operations
255 Last Temple Street. Suite TS-i 34

District Court Executive / Clerk of Court
350 West 1st Street Suite 43! 1
Los Angeles. CA 90012

gEff-Wks,CA 90012

July 9. 2019
Sh ■ •

Los Angeles County Superior Court
111 North Hill Sired
Los Angeles. CA 9001?

M I5 . ■
1

By.
Oeputy

Re: Case Number:
2:19—cv-05838-PA—PI A
Previously Superior Court Case No.
19STVC17949
Case Name:
Marcus Silver et al v. Bertram Siegel et al
Dear Sir/Madam:
Pursuant to this Court's ORDER OF REMAND issued on
hereby remanded to your jurisdiction.

7/9/19

the above-referenced case is

Attached is a certified copy of (he ORDER OF REMAND and a copy of the docket sheet from this Court.
Please acknowledge receipt of the above by signing the enclosed copy of this letter and returning if to the
location shown below. Thank you for your cooperation.
United States Courthouse
255 East Temple Street. Suite TS-I34
Los Angeles. CA 90012

Respectfully.
Clerk, U.S. District Court

Ends.
cc: Counsel ofrecord

By: /s/ Beniamin Moss
Deputy Clerk
Benjamin_Moss@cacd.iiscourts.gov

Receipt is acknowledged ol the documents described above.

Clerk. Superior Court

JUtv/ ib.lcKl
Dale

CV-103 (05/18)

PAUL CRUZ
By:

Deputy Clerk

LETTER OF TRANSMITTAL - REMAND TO SUPERIOR COURT (CIVIL)

ft

Cf
APPENDIX 8
06/18/2019 ORDER GRANTING PERMISSION TO FILE

*

/

Appellate Courts Case Information
2nd Appellate District

( Change court 1)

Docket (Register of Actions)
Stiver v. Siegel et ai.
Division 3
Case Number B301917
Date

Description

Notes

11/01/2019 Notice of appeal
iodged/received.

Filed 10/16/2019 by Marcus Silver

11/01/2019 Default notice
sent-appeiiant
notified per rule
8.100(c).

No Fee Rec'd.

11/14/2019 Filing fee.

Civii filing fee paid for by Marcus Silver.

11/15/2019 Civil case
information
statement filed.

Plaintiff and Appellant Marcus Daniel Silver
Pro Per

12/12/2019 Appellant's notice 11/15/2019 designating clerk's transcript and reporter's transcript
designating
record on appeal
fifed in trial court

on:
POS for NOA filed on 10/18/2019
03/19/2020 Received:
03/24/2020 Received copy of Amended notice of filing of notice of appeal dated Oct 18,2019
document filed in
trial court.
03/25/2020 Record on appeal C-1 (181 Pages) R-1
filed.
Appellant's opening brief was rejected via TrueFIting for the following reasons:
04/30/2020 Note:
-Missing electronic bookmarks
-Missing certificate of interested entities
-Missing service on trial judge re opening brief
05/29/2020 Received
document
entitled:
06/18/2020 Order filed.

- iC Received appellant's opening brief. Need permission to file,
A Brief does not comply with
1. Citations to the record.
2. Certificate of interested person and entities not submitted.
Permission to file appellant's opening is granted-Edmon, PJ.

r

*»

i

a

APPENDIX. 9
09/16/2019 REPORTER’S TRANSCRIPT

r
i.'

1

SUPERIOR COURT OF THE STATE OF CALIFORNIA

2

FOR THE COUNTY OF LOS ANGELES
HON. TERRY GREEN, JUDGE

3

DEPARTMENT 14

4

MARCUS DANIEL SILVER,
PLAINTIFF,

5

)
)

)
)

6
7

) CASE NO. 19STCV17949

VS.
BERTRAM SIEGEL, ET AL.,
DEFENDANTS.

8

)
)
)

)
)

9
10
11
12

REPORTER'S TRANSCRIPT OF PROCEEDINGS

13

MONDAY, SEPTEMBER 16, 2019

14
15
16

APPEARANCES:

17

PLAINTIFF PRO SE:
MARCUS DANIEL SILVER, PRO SE
MARCUSDAMIELSILVER@GMAIL. COM
8613 FRANKLIN AVENUE
LOS ANGELES, CA 90069
PHONE: 310.945.6105

18
19
20
21

ATTORNEY FOR DEFENDANTS:
JENNER & BLOCK
BY: DAVID R. SINGER, ESQ.
DSINGER@JENNER.COM
633 WEST 5TH STREET, SUITE 3600
LOS ANGELES, CA 90071
PHONE: 213.239.5100
FAX: 213.239.2216

22
23
24
25
26
27
REPORTED BY:
28

NIL S. WILCOX, CSR 9178
COURT REPORTER PRO TEMPORE

1

SUPERIOR COURT OF THE STATE OF CALIFORNIA

2

FOR THE COUNTY OF LOS ANGELES

3

DEPARTMENT 14

4

MARCUS DANIEL SILVER,

HON. TERRY (SEEN, JUDGE

S

)
)

PLAINTIFF,

}
)

6

VS.

7

BERTRAM SIEGEL, ET AL • I

} CASE NO. 19STCV17949

8

)
)
)

DEFENDANTS.

}
>

9
10
11

I, WIL S. WILCOX, CSR NO. 9178, OFFICIAL

12

PRO TEMPORE COURT REPORTER OF THE SUPERIOR COURT OF THE

13

STATE OF CALIFORNIA, FOR THE COUNTY OF LOS ANGELES, DO

14

HEREBY CERTIFY THAT THE FOREGOING PAGES, 1 THROUGH 4-300

15

COMPRISE A FULL, TRUE AND CORRECT TRANSCRIPT OF THE

16

PROCEEDINGS TAKEN IN THE MATTER OF THE ABOVE-ENTITLED

17

CAUSE ON MONDAY, SEPTEMBER 16, 2019.

18
19

DATED THIS 17TH DAY OF MARCH 2020.

20
21
22
23

24
25
26
27
28

^

r %

A

\aJ a! A 'V\JXPtOxL

WIL 3. WILCOX, CSR NO. 9178
OFFICIAL PRO TEMPORE COURT REPORTER

1

1

CASE NUMBER:

19STCV17949

2

CASE NAME:

MARCUS DANIEL SILVER
BERTRAM SIEGEL, ET AL.

3
LOS ANGELES, CALIFORNIA; MONDAY, SEPTEMBER 16, 2019
4
DEPARTMENT 14

HON. TERRY GREEN, JUDGE

REPORTER:

WIL S. WILCOX
CSR NO. 9178

7

TIME:

9:36 A.M.

8

APPEARANCES:

(AS HERETOFORE NOTED.)

5
6

-ooo-

9
10
11

THE COURT:

12

MR. SILVER:

13

THE COURT:

14

MR. SINGER:

15

THE COURT:

16

MR. SILVER:

MARCUS SILVER, PRO SE.

17

MR. SINGER:

DAVID SINGER OF JENNER & BLOCK ON

18

GOOD MORNING, YOUR HONOR.
GOOD MORNING.
GOOD MORNING, YOUR HONOR.
STATE YOUR APPEARANCE, PLEASE.

BEHALF OF ALL DEFENDANTS.
GOOD MORNING, YOUR HONOR.

19
20

SILVER VERSUS SIEGEL.

THE COURT:

GOOD MORNING.

HAVE A SEAT, PLEASE.

THIS IS A MOTION TO QUASH SERVICE AND A

21

WE DON'T HAVE TO GET TO THE DEMURRER BECAUSE I

22

DEMURRER.

23

HAVE READ THE MOTION TO QUASH SERVICE, AND I DON'T SEE ANY

24

BASIS FOR JURISDICTION IN CALIFORNIA.

25

I'VE READ THREE DECLARATIONS.
ONE IS 87.

TWO OF THE

26

THREE ARE PEOPLE IN THEIR 80S.

ALL THREE SAY

27

THEY HAVE NO CONTACTS WITH CALIFORNIA AT ALL.

28

SAY THEY'VE HAD NO CONTACTS WITH THE PLAINTIFF SINCE 2009.

A COUPLE

2

YOU KNOW, YOU EITHER HAVE TO HAVE GENERAL

1
2

TTTJRISDICTTON-OR-SPECTFIC ~JURISDICTION':---- FOR-GENERAL

3

JURISDICTION YOU HAVE TO HAVE SUBSTANTIAL SYSTEMATIC

4

CONTACTS WITH THE STATE OF CALIFORNIA.
FOR SPECIFIC JURISDICTION YOU HAVE TO HAVE A

5
6

PURPOSEFUL AVAILMENT OF THE BENEFITS AND LAWS OF THE FORUM

7

STATE IN CALIFORNIA, AND THERE HAS TO BE A CONNECTION

8

BETWEEN THOSE CONTACTS AND THE INJURY COMPLAINED OF, AND

9

IT HAS TO LASTLY BE FAIR, JUST, AND EQUITABLE.

10

NONE OF

THESE BOXES ARE CHECKED.

11

MR. SILVER:

12

THE COURT:

WELL
HANG ON A SECOND.

NONE OF THESE BOXES ARE CHECKED.

13

THERE IS NO

14

EVIDENCE OF CONTACTS WITH CALIFORNIA, SUBSTANTIAL OR

15

INSUBSTANTIAL, AND AS I SAID, SOMEBODY VISITED HERE IN

16

2014 OR SOMETHING.
AND PURPOSEFUL AVAILMENT, THERE'S NO EVIDENCE

17

AND AS FAR AS WHETHER THIS WOULD BE FAIR, JUST,

18

OF THAT.

19

AND EQUITABLE, WE HAVE NEW YORK RESIDENTS, AT LEAST TWO OF

20

WHOM ARE ELDERLY.

21

I'M 72.

22

BASIS FOR DRAGGING THEM ACROSS THE COUNTRY TO BE HERE.

CAN I CALL AN 80-YEAR OLD ELDERLY WHEN

WELL, REGARDLESS, THEY ARE ELDERLY, AND I SEE NO

APPARENTLY, THIS CASE HAS A SORDID HISTORY.

23
24

YOU GUYS HAVE BEEN TO FEDERAL COURT OR SOMETHING AND THEN

25

BACK.

26

MR. SINGER:

WE WERE REMOVED, YOUR HONOR, BUT FOR

27

THE LP, OUR MISTAKE, WE FAILED TO GO THROUGH EACH MEMBER,

28

AND WE JUST REFERRED TO THEM GENERALLY.

3

1
2

THE COURT:

WHAT, YOU DID AW INCOMPLETE DIVERSITY;

IS THAT WHAT IT WAS?

3

MR. SINGER:

CORRECT.

THE COURT CORRECTLY CALLED US

4

OUT FOR GENERALLY SAYING NONE OF THE MEMBERS HAD

5

CITIZENSHIP HERE, AND THE COURT SAID THAT YOU NEED TO

6

ACTUALLY GO THROUGH EACH MEMBER AND SAY WHAT STATE THEY

7

ARE CITIZENS OF.

8

THE COURT:

9

OKAY.

SO, DO YOU WANT TO BE HEARD?

READ YOUR PAPERS SUCH AS THEY ARE, MR. SILVER.

I

YOU SAY A

10

LOT, VERY LITTLE OF WHICH IS PERTINENT TO THESE MOTIONS,

11

AND YOU INTRODUCE NO EVIDENCE.

12

PROBLEM WITH IT.
MR. SILVER:

13

OTHER THAN THAT, I HAVE NO

WELL, I WOULD SAY THAT THEY'VE ALREADY

14

ACKNOWLEDGED JURISDICTION BECAUSE THEY’VE BEEN BEFORE TWO

15

OTHER JUDGES IN THIS COURT SYSTEM IN THIS STATE.
THE COURT:

16

WELL, IT DEPENDS IF THE APPEARANCES ARE
I THINK PREPARING TO REMOVE THE CASE

17

SPECIAL OR GENERAL.

18

TO FEDERAL COURT IS NOT A GENERAL APPEARANCE.
REGARDLESS, I HAVE NO EVIDENCE OF ANY OF THIS

19
20

STUFF.

21

CHECK ANY OF IT.

22

HAVE EVIDENCE FROM THE DEFENSE.

23

NOBODY PRESENTED ME WITH ANYTHING WHERE I COULD
I HAVE NO EVIDENCE FROM YOU.

I JUST

AND SO WHILE YOUR POINTS AND AUTHORITIES MAKE

24

INTERESTING READING, THEY DID NOT REALLY RING ANY BELLS.

25

I UNDERSTAND IT’S A DIFFICULT TIME.

26

EXPENSIVE PROPERTY IN WEST HOLLYWOOD OR SOMETHING

27

MR. SILVER:

28

THE COURT:

YOU BOUGHT APPARENTLY

YES.
AND THE MARKET WENT SOUTH AND YOU GOT

4-300

1

FORECLOSED ON.

2

NEW YORK WITH OCWEN AND SOME OTHER LENDER, AND YOU FEEL

3

THAT THE INDIVIDUAL DEFENDANTS, WHO ARE RELATED TO YOUR

4

COUSINS OR AUNTS OR SOMETHING; RIGHT?

APPARENTLY, THAT WAS IN LITIGATION IN

5

MR. SILVER:

6

THE COURT:

YES.
SOMEHOW WERE INVESTORS IN THESE

7

COMPANIES AND WERE ACTING IN NEFARIOUS WAYS.

8

KNOW, BUT THAT'S WATER WELL UNDER THE BRIDGE HERE.

9

PLACE TO TRY THIS CASE IS IN NEW YORK IF IT'S GOING TO BE

10

OKAY.

12

DOWNSTAIRS.

13

TODAY.

17

SO I'VE GOT TO MOVE ON.

I HAVE TO GET

I ORDERED A LARGE PANEL FOR A TRIAL STARTING

THANK YOU FOR BEING HERE.

14

16

THANK YOU FOR WAITING.

— THE MOTION -TO QUASH-SERVICE OF SUMMONS-IS
.GRANTED.

THE MOTION FOR DEMURRER AND TO STRIKE ARE OFF

CALENDAR AS MOOT.

THE MATTER IS DISMISSED.

GOOD LUCK TO YOU, SIR.

18

MR. SILVER:

THANK YOU.

19

MR. SINGER:

THANK YOU, YOUR HONOR.

20
21

* * *

22
23
24
25
26
27
28

THE

TRIED ANYWHERE.

11

15

I DON'T

(THE RECESS WAS TAKEN AT 9:41 A.M.)

-

APPENDIX 10,
08/19/2019 COMBINED OPPOSITION

4

K

t

V

j

1 *!

t

Marcus Silver (pro se)
8613 Franklin Avenue
Los Angeles, .CA.90069__
Telephone (310) 945 6105
SUPERIOR COURT OF THE STATE OF CALIFORNIA
COUNTY OF LOS ANGELES

MARCUS SILVER (pro se) and posthumously
on behalf of FRANCINE SILVER
Plaintiff
v

] Case No. 19STCV17949

3

] Assigned to the Hon. Terry
] Green, Dept. 14

3

COMBINED OPPOSITION
BERTRAM SIEGEL, CAROLE SIEGEL,DAVID ] TO DEMURRER,
] OPPOSITION TO MOTION
SIEGEL, TWO SIGMA INVESTMENTS, LP.
] TO STRIKE FOR PUNITIVE
] DAMAGES AND
Defendants
] OPPOSITION TO MOTION
] TO QUASH SERVICE FOR
] LACK OF PERSONAL
] JURISDICTION

3
3

P

Combined Opposition to Demurrer. Opposition to Motion to Strike for Punitive
Damages and Opposition to Motion to Quash Service for lack of personal
jurisdiction.
Defendants) have already defaulted, their response is too late, devoid of merit and
fatally defective. Demurrers must be filed within 30 days of service of the
complaint (extensions do not extend time to demurrer) Extensions to respond to
the complaint AFTER the initial 30 day period do NOT keep open the time to
demurrer! CCP § 430.40 Code of Civil Procedure § 430.40 states: (a) A person
against whom a complaint or cross-complaint has been filed may, within 30 days
after service of the complaint or cross-complaint (specifically not the summons),
demur to the complaint or cross-complaint. Plaintiff filed the present action
against the Defendant on May 22,2019 and mailed Defendants) a copy of the
complaint via priority mail. The complaint was received on May 24,2019. The
time to file a demurrer and also a peremptory challenge is within 30 days of
receiving the complaint or by no later than June 23,2019 but Defendant waited
over 2 months until August 8,2019 to file the demurrer - Way too late! The two
peremptory challenges were also belatedly filed, the first on July 16,2019 which
was subsequently denied on July 19,2019, then one week later on July 26,2019
the second, fatally defective 170.6 challenge was filed but nevertheless granted.
Regarding the Notice of Removal, the rules state that "a notice of removal of a
civil action or proceeding shall be filed within 30 days after the receipt by the
defendant, through service or otherwise, of a copy of the initial pleading setting
I

30 days after the service of summons upon the defendant if such initial pleading
has then been filed in court and is not required to be served on the defendant,
—whichever-period -is shorter.—Plaintiff(s) did not satisfy-the -1 after option because—
they were required to serve but they did satisfy the first option because the initial
pleading/complaint was served via Priority Express Mail on May 22,2019 and
was received by May 24,2019 but even if it took 10 days to be delivered, it would
mean a timely request for removal would have needed to be made by no later than
July, 2,2019 but no such request was made until July, 8, 2019 - Almost an entire
week too late and rendering the notice devoid of merit. The fact that it was
allowed puts plaintiff in an unfair and compromised position because instead of
having to respond by no later than July 9th, 2019 to the summons which was
served via priority mail on May 30,2019, the defendants argue that they had until
August 9th, 2019 but they are incorrect and defaulted because no reply brief has
ever been filed and the demurrer and peremptory challenge were both void and
fatally defective because they were late and should have been filed within 30 days
of receiving the complaint or as previously mentioned by June, 24,2019 and not
August 8th, 2019. The Notice of Removal was also untimely and results in an
unfair extension of time for Defendants) to have responded.
Plaintiff also adamantly, categorically and vehemently denies that there was a
meet and confer prior to the untimely filing of the demurer. Plaintiff admits a
conversation took place on June 17,2019 between Plaintiff and Defense counsel
David Singer and AnnaMarie A. VanHoesen. This was the first and only
%

conversation at one point he had to ask opposition counsel if they had even had a
chance to review the complaint yet because they seemed veiy new to the case and
also could-oniy-have -been retained, soon-before .the. discussion. Contact________
information and settlement opportunities were discussed. Absolutely none of the
issues in the Demurrer were discussed at all and were only brought to plaintiffs
attention when the demurrer was received on August 9,2019. Had the issues
raised in the demurrer been discussed and known during the first and only joint
conversation on June 17,2019 then defense counsel should have been able to
timely file the demurrer instead of waiting almost 2 months because at this stage
the issues are clearly more of a very desperate and very belated after thought.
Furthermore, had Defendant's Counsel actually raised the issue of Plaintiffs legal
capacity to represent his mother Francine Silver (the Decedent) Marcus would
have immediately pointed out that he is the sole undisputed heir and that the Court
of Appeals in case # B289266 had already recognized Marcus Silver's legal
capacity to litigate and represent his decedent mother. Under the doctrine of res
judicata the matter has already been decided in favor of the plaintiff in the court of
appeals and should not have to be re-litigated but in any case Plaintiff can satisfy
all required elements to prove he is authorized to represent Francine Silver.
Even if the Demurrer was timely filed and a valid meet and confer had occurred,
it's arguments are devoid of merit. Plaintiff filed the complaint within all the
applicable statute of limitations. Decedent Francine Silver died on November 22,
2019 after suffering from numerous ailments including Alzheimer's and dementia.

5

h

like recovering for emotional distress having to be filed within 6 months of her
death and this case was subsequently timely filed on May 22,2019 which was the
• last possible. day.(Plaintiff-wanted to - give Defendant's, every, last chance.to respond
to the questions that had been raised but calls were only returned by their counsel
Matt Sienna).
Plaintiffs) were initially unaware that they had been defrauded for many years or
in fact decades and did not even suspect or learn of it until at the earliest around
late May 2016 when Bertram starting probing and asking Marcus about his plans
on litigation for the home. Marcus at this stage had recently found out that Two
Sigma was a major investor in Ocwen who was trying to foreclose and decided to
ask Bertram how he found out the home had been in foreclosure litigation in the
first place and why he did not let plaintiffs) know Defendanfs) were major
investors in Ocwen, the company defrauding plaintiffs). As mentioned in the
initial complaint, Bertram could not excuse himself from the conversation fast
enough and that was the last time Marcus spoke with any of the Defendanfs). The
last communication between Bertram and Carole Siegel and Francine Silver
occurred several days later in late May 2016 when Bertram and Carole spoke with
Francine to advise that they would no longer be sending checks or corresponding
and this is reflected in banking and telephone records.
The extent of fraud and scope of malevolent, tortious behavior did not become
clear or evident until early 2017 so the statute of limitations regarding fraud was
adhered to and to this day has not yet tolled and even if it had tolled, Defendanfs)

4

P

absent of excusable neglect, is as good as no response and their default should be
entered.
The Defendant(s) Motions should be denied and are based upon false, inaccurate
or perjerous testimony. Defendant Bertram declares under penalty of perjury that
he has not been in contact with the Plaintiff(s) except for sporadic contact prior to
2014 but the email from Bertram in the complaint is from September 7,2015
regarding his visit to Plaintiff(s) - see attachment 4, page 3 of 3 in the complaint
(dated September 7,2015). .Although Bertram and Carole declare they have not
been in contact with plaintiff(s) since 2014 and 2009 respectively, banking,
phone, travel and email records contradict this false assertion. Plaintiffs) dispute
not having had contact with Carole Siegel since 2009 because it is simply a bald
faced lie. David Siegel asserts there has been no contact since 2015 but the
complaint contains a New years card from 2018. Plaintiff was clearly contacted at
least by mail as recently as 2018.

1/
Defendants were properly served and have already admitted they received the
complaint. It is clear and undisputed by AnnaMarie A. VanHossen's declaration in
the defendant's opposition to motion for default judgment that both the complaint
and summons were served respectively on May 22, and May 30,2019. How would
defendant's have known to hire defense counsel if they had not been served? This
should be sufficient evidence for the court to recognize that the defendants were
aware of the complaint and it did not come upon them by surprise or without valid
time to respond. Under section 415.40 a plaintiff must provide "evidence

5

a signed return receipt or other evidence." but in this case the other evidence is
defense counsel's own testimony that the summons and complaint were both
received-and-that- defendants -were obviously-aware -they. had.been. served or_wou!d
not have retained counsel..
The declarations by Bertram and Carole Siegel are full of lies and inconsistencies.
If someone will lie and cheat their own mother and sister and clearly lacks
morality what can really be expected? The motion against punitive damages is full
of lies, inconsistencies and devoid of merit. The issues in the motion against
jurisdiction has already been decided by the District Court. The declarations by
Defendants) were at best incorrect at worse peijerous and in either case nonbelievable. The torts occurred in California and this court has obvious jurisdiction.
If Defendant's arguments prevail then anyone can come to California from another
state, commit a tort and avoid culpability unless prosecuted in the state or country
they claim to reside in. With regard to defendant’s motion to strike punitive
damages it should be denied because it lacks merit, is factually incorrect and is
conclussory. Plaintiffs claim is sufficiently well pled and refers to many facts that
would substantiate an award for punitive damages but the point is moot because
plaintiff has already offered to waive punitive damages unless the case goes to
trial and in that event it will be for a jury to decide whether or not punitive
damages should be awarded and if so the amount. There is no good cause to quash
service of the summons on the ground of lack ofjurisdiction, to dismiss the action
on the ground of inconvenient forum or for any other reason, it is not inconvenient

4

V

and have visited California numerous times. This court exercises personal
jurisdiction because the plaintiff(s) were living in Los Angeles and the torts
occurred-in.Los Angeles and .the.defendants.were.in LosAngeles. It would be
absurd and result in a breakdown of the State's judicial system if citizens of other
states or countries could commit torts in Los Angeles and not be held accountable
in our own courts but instead in the courts of their own countries or states. Under
section 410.10 of California Code of Civil Procedure, a court of this state may
exercise jurisdiction on any basis not inconsistent with the Constitution of this
state or of the United States. Defendants all met with Plaintiffs) or maintained
regular contact with and visited Plaintiffs) including most recently as in
September, 2015 as per the email attached in the complaint. Regular phone contact
was maintained until late May 2016, prior to that Francine had maintained regular
contact throughout her entire life and loved and trusted her family members.
Bertram had previously been entrusted with the keys to the Plaintiffs) home in
new York when they resided there until 1997 and had been held in very high
regard by Francine until her last year or two of life when she finally discovered the
true nature of Bertram. Defendants) are subject to general jurisdiction because
defendants) maintained substantial, systematic and continuous relations with
plaintiffs). Defendants) are also subject to specific jurisdiction because they
visited Los Angeles, met with Plaintiffs), the subject controversy is related to or
arises out of the defendants) contact with the state and the assertion of personal
jurisdiction comports with fair play and substantial justice. The three part test to

7

meet with Plaintiffs) and thereby availed themselves of the privilege of
conducting activities in the forum, thereby invoking the benefits and protections of
it's lawsrThe'claimarises'at least inpart fiomthe-forum' relatedactivities andthe—
exercise of jurisdiction is reasonable. As explained in the complaint, the
defendant(s) acts were on-going and intentional, expressly aimed at the forum
state, caused harm in the forum state and knew the their actions would cause harm
in the forum state. Exercising Jurisdiction is reasonable. Defendants) have access
to private jets and first class travel and will not be significantly inconvenienced.
California has an interest in protecting it’s citizens and their property, effective
relief is not equally convenient in New York and the torts did not occur there, the
interstate judicial system's interest in obtaining the most efficient resolution of the
controversies is satisfied as is the shared interest of the several States in furthering
substantive social policies. The Court has reasonable Jurisdiction.
Regarding punitive damage for NIED and EGED, Plaintiffs) alleged facts that
demonstrated Defendants) were conscious of an extreme risk to Plaintiffs) as a
result of their intentional actions, acted despicably and failed to exercise a duty of
due care.
Plaintiffs) did not expect or seek to get "bailed out" and did not expect or want
any help but did not expect to get pestered for confidential information and
deceived and should have been made aware that there was a major conflict of
interest before Defendanfs) pestered them for the information. The harm suffered
was more than just purely economic. Plaintiff alleged facts that indicate

8

P

Defendants) conduct was meant to cause injury to the Plaintiffs) and also
engaged in on-going despicable conduct with a willful and conscious disregard of
'therights-and'safety'ofthe~Plamtiff(s)rOppression occurredbecause Plaintiffs)
were subjected to cruel and unjust hardship in conscious disregard for their rights.
Fraud occurred because their was intentional misrepresentation and concealment
of material facts known to the defendants but hidden from Plaintiffs) and that
caused injury. Defendants) conduct was reprehensible.
Plaintiff Francine Silver was for over 90 years besotted with and concerned for her
as she put it her "baby brother"s welfare. It was only in the last year or two of her
demise that she had to recognize the extent of his depraved and morally despicable
and reprehensible behavior. Plaintiffs) could not have suspected that while prying
for information Bertram was vicariously invested in the companies that Plaintiffs)
were in active litigation with.
In summary, the demurer is fatally defective because it is too late and the motions

V

j

for punitive damages to be struck and for the complaint to be quashed for lack of
personal jurisdiction are also not only too late but also devoid of merit, substance
and believability and clearly include inaccurate/perj erous declarations.
Defendanfs) will evidently lie, cheat, steal from and outwit anyone they can.
Plaintiffs) have been victims of fraud and do not seek a financial windfall, they
seek justice.

9

Despite unlimited resources, knowledge of applicable deadlines and
representation by a prestigious international law firm Defendants other arguments
arespeculative.~conclusson^-tooiateanddevoid.of.belieyabilityand merit. The
Defendants conduct is abominable and devoid of morality. They will tarnish a
Judges character with a baseless and unfounded peremptory challenged) and
submit untruthful affidavits and testimony in order to accomplish their objectives.
The motions and the demurrer must all be denied and absent of excusable neglect,
the Court should enter the Defendant's default and grant judgement in favor of
plaintiff(s).
Respectfully,

W

C7
Marcus Silver

August 19,2019

ic

APPENDIX 11
06/18/2020 APPEAL BRIEF

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT

Marcus Daniel Silver
Plaintiff and Appellant
V.

Bertram Siegel, et al.
Respondent(s) and Appellee(s)

]

3
3
3
3
3
3
3
3
3
3

Court of Appeal No.
B301917
Superior Court No.
19STCV17949

Appeal from an Order of the
Stanley Mosk Superior Court,
County of Los Angeles
Hon. Terry Green, Judge

Marcus Silver (pro se)
8613 Franklin Avenue
Los Angeles, CA 90069
Tel. 310 945 6105

1

APP-008

TO BE FILED IN THE COURT OF APPEAL
COURT OF APPEAL CASE NUMBER:

COURT OF APPEAL

APPELLATE DISTRICT, DIVISION

ATTORNEY OR PARTY WITHOUT ATTORNEY: -

iq <ztc\J n

STATE BAR NUHBBt

SUPERtOR COURT CASE NUMBER:

SfAv/^R Cfno&Q.

NAME:

strktadoress^>^/3

cnY:

TEiBHONENO-

{/-}

£ios

slATC:i

I*—

E-MAIL ADDRESS: 3 f O *7

B~k>

Cf^fWJKLffJ

I7

ZPCODE^^O^

FAX NO.:

£ tO

ATTORNEY FOR (name):

MftAcuS

APPELLANT/
PETITIONER:
RESPONDENT/ BEKTftAfj[
REAL PARTY IN INTEREST:

$IX\J£R
-etr*l.

CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
(Check one):

m«

INITIAL CERTIFICATE □□ SUPPLEMENTAL CERTIFICATE

Notice: Please read rules 8.208 and 8.488 before completing this form. You may use this form for the initial
certificate in an appeal when you file your brief or a prebriefing motion, application, or opposition to such a
motion or application in the Court of Appeal, and when you file a petition for an extraordinary writ You may
also use this form as a supplemental certificate when you learn of changed or additional information that must
be disclosed.
1. This form is being submitted on behalf of the following party (name):
2. a. X^sfjhere are no interested entities or persons that must be listed in this certificate under rule 8.208.
b. |

| Interested entities or persons required to be listed under rule 8.208 are as follows:
Full name of interested
entity or person

Nature of interest
(Explain):

(D
(2)
(3)

W
(5)
I

l Continued on attachment 2.

The undersigned certifies that the aboveTisted persons or entities (corporations, partnerships, firms, or any other
association, but not including government entities or their agencies) have either (1) an ownership interest of 10 percent or
more m the party if it is an entity; or (2) a financial or other interest in the outcome of the proceeding that the justices
should consider in determining whether to disqualify themselves, as defined in rule 8.208(e)(2)-

Date:

S/(5/XoXd

fJlpi&PuZ

'

(TYPE OR PRINT NAME)

(SIGNATURE OF APPELLANT OR ATTORNEY)
Paget of 1

Farm Approved for Optima} I
Jutfida! Council of CdRfomfo
APP-O08 [Rev. January 1,2017}

CERTIFICATE OF INTERESTED ENTITIES OR PERSONS

For your protection and privacy, please press the Clear
The Form button after you have printed the form.

| Print this form 11 Save this form |

Cal Rules of Court, rules 8.208,8.488
mmjoowtsuCa.gw

| Clear this form |

2

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES

4

STATEMENT OF THE CASE

5

STATEMENT OF APPEALABILITY.

9

STATEMENT OF FACTS

9

ARGUMENTS:
I.

NOTICE OF REMOVAL WAS LATE AND
SHOULD NOT HAVE BEEN FILED OR
ACCEPTED.......................................................

II.
III.
IV.

ONLY ONE, NOT TWO PEREMPTORY
CHALLENGES ARE ALLOWED................
THE MOTION TO QUASH SHOULD HAVE
BEEN DENIED.......................................

11
15
17

THE MOTION AGAINST PUNITIVE
DAMAGES IS MOOT

,27

V.

THE DEMURRER WAS FATALLY DEFECTIVE...27

VI.

THE JUDGE LACKED IMPARTIALITY.

28

VII. DEFAULT JUDGMENT SHOULD HAVE
BEEN ENTERED..
VIII. DUE PROCESS WAS DENIED

34
36

CONCLUSSION

38

CERTIFIACTE OF COMPLIANCE

40

PROOF OF SERVICE

41

3

TABLE OF AUTHORITES
CASES

Page

Burnham v. Sup.Ct.495 U.S. 604, 609, 110.llS.Ct. 2105, 2110..26
Fong v American Airlines,(1977, DC Cal) 431 F Supp 1334........32
33

Goldberg v. Kelly

Hamilton v. Asbestos Corp. (2000) 22 Cal.4th 1127, 1147.....22, 35
In re Swenson, 244 P.3d 959 (Wash. Ct. App. Div. 1 2010)

33

Mansour v. Sup.Ct. (Eidem) (1995) 38 Cal.App.4th 1750, 1756..22
Murphy v. Michetti Court of Appeals. 11th Circ. No 97-1909...... 12
Neihaus v. Sup.Ct. (1977) 69 Cal.App.3d 340, 345

20

STATUTES & RULES
28 U.S.C.A. 455(a)

32, 33

28 U.S. Code §1446

12, 13

170.6 Peremptory Challenge

6, 7, 10, 15, 16, 19, 33, 36, 37

California Code, Code of Civil Procedure - CCP § 430.90......11, 12
Rule 3.724. Duty to meet and confer
Section 418.10

8, 22
11, 14, 16, 28

Section 583.250

11

The 2020 California Rules of the Court Canon 2

25

4

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION

APPELLANTS OPENING BRIEF
STATEMENT OF THE CASE
Appellant Marcus Silver filed the complaint on May 22, 2019 on
behalf of himself and his deceased Mother, Francine Silver. The
complaint alleged negligence, gross negligence, fraud by
concealment, conspiracy to defraud, negligent infliction of
emotional distress and intentional infliction of emotional distress.

Appellant(s) and Appellee(s) are relatives. The claim stems not
entirely but in large part from the fact that Appellee(s) somehow
mysteriously learned that Appellant(s) were in high level
litigation with GMAC and Ocwen. Appellant(s) were pestered,
mocked, insulted and taunted in a passive aggressive fashion
while Appellee(s) garnered highly confidential, personal
information only available to a close family member or highly
trusted person and without disclosing that there was an obvious
conflict of interest because they were major investors in both
GMAC and Ocwen.

The thrust of this appeal however is not based so much upon the

5

merit and strength of the powerful and disturbing arguments in
Appellant(s) timely brief and nor is it significantly based on the
weak, belated and void arguments of the Appellee(s). Instead it is
based largely upon apparent errors made by the court in
interpreting and following relevant rules and laws, especially
regarding peremptory challenges and deadlines for filing
responses.

Appellant(s) Initial Complaint was filed on May 22, 2019. The
complaint was served on out of State Appellee(s) via U.S. Priority
Mail and admittedly received by Appellee(s) on May 24, 2019.

The Summons was served separately on May 30, 2019 also via
U.S. Priority Mail. No Acknowledgment of Receipt form was ever
returned.

The deadline to file a written response other than a Demurrer
or Notice of Removal is 30 days after service of the Summons.

The deadline to file a Notice of Removal or Demurrer is not
the same as filing other types of responses because instead of
running from the time the Summons is served, it runs from the
time the Complaint is received (5/24/19) resulting in a 6/23/19
deadline.

6

Appellant(s) argue that Appellee(s) failed to file a timely,
conforming response to the initial complaint because they did not
file their Notice of Removal until 7/8/19 (15 days past the
deadline) so on 7/15/19 a request for entry of default was made.
Appellee(s) opposed on 7/16/19 and the request for default was
later denied on 7/23/19 because the Notice and Acknowledgment
of Receipt forms had not been returned and also because the
belated Notice of Removal was filed on 7/8/19.

One day after the 7/8/19 fifing, on 7/9/19, the Notice of Removal
was denied due to a question of citizenship, but had there been
time for Appellant(s) to object, it would have been argued that
the Notice of Removal should have never been accepted or filed
after the 6/23/19 deadline had expired.

After making their first General Appearance with the 7/8/19
Notice of Removal, Appellee(s) were effectively served and went
on to make numerous additional General Appearances including
Declarations, an Initial Peremptory Challenge that was denied
and then a Second Challenge that was errantly granted a week
later and all of these General Appearances were made before
Appellant(s) suddenly felt that they were in the wrong
Jurisdiction! This ultimately resulted in the filing of the untimely
and void Motion to Quash on August 8, 2019.

7

The reason Appellant(s) believe the Motion to Quash was
untimely and void is because Appellee(s) conceded to the
jurisdiction of the court and were effectively served on 7/8/19
when they filed the Notice of Removal. The Motion to Quash
must be filed within 30 days of being served with the Summons
which effectively left a deadline of no later than 8/7/19 to file but
the Motion to Quash was not filed until 8/8/19 so the deadline
was missed.

Even if the deadline had not been missed, Appellee(s) made
numerous General Appearances prior to filing the Motion to
Quash and by making these General Appearances Appellee(s)
had conceded to the court’s jurisdiction and waived the right to
future jurisdictional arguments including motions to quash, even
if timely.

Appellee(s) argue that they should have 30 days from the 7/9/19
Notice of Remand from Federal Court to file a response. One of
the issues to be resolved and clarified is whether a Notice of
Removal that is filed 15 days past the applicable deadline should
then have a knock on effect and give Appellee(s) an extra 30 days
to respond. Appellant believes an extension in time to respond
should only apply providing the Notice of Removal is timely filed
otherwise what is the point of having a 30-day deadline?

8

On September 16, 2019 a hearing was held and Judge Green
ordered the belated Motion to Quash Service of Summons to be
granted, the Demurrer and Motion to Strike to be taken off
calendar and the Complaint dismissed. Appellant now
respectfully appeals this order.

STATEMENT OF APPEALABILITY
This Appeal is from the judgment of the Los Angeles County
Superior Court and is authorized by the Code of Civil Procedure,
section 904.1, subdivision (a)(1)

STATEMENT OF FACTS
1.

The initial complaint was filed on 5/22/19.

2.

Appellee(s) received the initial complaint via priority mail
on May 24, 2019.

3.

The Summons was later served via US Priority Mail on
May 30, 2019.

4.

The deadline to file a notice of removal was 30 days after
the 5/24/19 receipt of the Initial Complaint or by 6/23/19.

5.

An untimely Notice of Removal was filed 15 days too late
on July 8, 2019.

9

6.

Appellee(s) failed to file a timely conforming response to
Appellant(s) summons and complaint and thereby
defaulted and waived their rights to future arguments but
because they made numerous general appearances prior to
filing the Motion to Quash, it also means they recognized
the court's jurisdiction and waived the right to future
arguments including Motions to Quash.

7.

A motion for Default Judgment was filed on July 15, 2019.

8.

An objection to the motion for Default Judgment was filed
on July 16, 2019 and was later granted on July 23, 2019.

9.

On July 16, 2019 Appellee(s) made a Peremptory Challenge
which was denied on July 19, 2019. One week later on July
26, 2019 a second Peremptory Challenge was made and
granted despite being late and non-conforming.

10.

On August 8, 2019 Appellee(s) filed a belated Motion to
Squash service of summons for lack of personal jurisdiction,
a Motion to Strike punitive damages and a belated
Demurrer although there had not been a meet and confer.

11.

On August 19, 2019 Appellant(s) filed a combined

10

Opposition to the Demurrer, Motion to Strike for punitive
damages and Opposition to Motion to Quash for lack of
personal service.

12.

On September 9, 2019 defendants replied in support of the
Motions and Demurrer.

13.

On September 16 2019 the Court granted the Motion to
Quash Service of Summons and took the Demurrer with
Motion to Strike off calendar. The complaint was dismissed
without prejudice due to a lack of jurisdiction and this
appeal was subsequently timely filed on October 16, 2019.

ARGUMENT
NOTICE OF REMOVAL SHOULD NOT HAVE BEEN FILED
OR ACCEPTED

The_Initial Complaint was filed on May 22, 2019 and
Appellee(s) were served via US Priority Mail and received the
Initial Complaint two days later on May 24, 2019.

The Summons was served separately via priority mail on May
30, 2019 but the Acknowledgment of Receipt Forms were never

11

returned, arguably rendering service of the Summons ineffective
until 7/8/19 when Appellee(s) appeared by filing a Notice of
Removal. By filing the Notice of Removal, Appellee(s) also
conceded to the court's jurisdiction and were undeniably
effectively served the Summons by their appearance as of 7/8/19.

The deadline for filing a Notice of Removal is not the same as the
deadline for a written response to a summons. Under 28 U.S.
Code §1446 Procedure for removal of civil actions section (b)(1)
Requirements; "The notice of removal of a civil action or
proceeding shall be filed within 30 days after the receipt by
the defendant, through service or otherwise, of a copy of the
initial pleading setting forth the claim for relief upon which
such action or proceeding is based, or within 30 days after the
service of summons upon the defendant if such initial pleading
has then been filed in court and is not required to be served on the
defendant, whichever is shorter".

Also see Murphy Brothers, Inc. v. Michetti Pipe Stringing,
Inc.certiorari to the United States Court of Appeals for the
Eleventh Circuit no. 97-1909 where the Court reversed and
remanded, instructing the District Court to remand the action to
state court and emphasizing the statutory words "receipt... or
otherwise," the Eleventh Circuit held that the defendant's receipt

12

of a faxed copy of the filed initial pleading sufficed to commence
the 30-day removal period and that Murphy filed the removal
notice 14 days too late under § 1446(b), which specifies, in
relevant part, that the notice "shall be filed within thirty days
after the receipt by the defendant, through service or
otherwise, of a copy of the [complaint!

In this case, the complaint was served on May 22, 2019 via US
Priority Mail and was received on May 24, 2019 triggering a June
23, 2019 deadline for a Notice of Removal but Appellee(s) did not
file until over two weeks later on July 8, 2019. The very next day
on July 9, 2019 the Notice of Removal was denied due to
citizenship issues as explained and addressed in the ruling but
because it was filed 15 days too late, it should never have been
accepted, filed or ruled on in the first place and it should not have
then resulted in an extension of time to file a responsive pleading
or avoid a default.

California Code, Code of Civil Procedure - CCP § 430.90
states:"(q) Where the defendant has removed a civil action to
federal court without filing a response in the original court and
the case is later remanded for improper removal, the time to
respond shall be as follows:

13

(1) If the defendant has not generally appeared in either the
original or federal court, then 30 days from the day the original
court receives the case on remand to move to dismiss the action
pursuant to Section 583.250 or to move to quash service of
summons or to stay or dismiss the action pursuant to Section
418.10, if the court has not ruled on a similar motion filed by the
defendant prior to the removal of the action to federal court.

(2) If the defendant has not filed an answer in the original court,
then 30 days from the day the original court receives the case on
remand to do any of the following:

(A) Answer the complaint.

(B) Demur or move to strike all or a portion of the complaint if: (i)
an answer was not filed in the federal court, and (ii) a demurrer
or motion to strike raising the same or similar issues was not filed
and ruled upon by the original court prior to the removal of the
action to federal court or was not filed and ruled upon in federal
court prior to the remand. If the demurrer or motion to strike is
denied by the court, the defendant shall have 30 days to answer
the complaint unless an answer was filed with the demurrer or
motion to strike.

14

As clear from the aforementioned, the time to file the Notice of
Removal must be calculated from the date the Complaint is
received or by no later than 6/23/19. Because the Notice of
Removal was filed over two weeks too late and never should have
been filed or accepted in the first place, it is clearly not intended
that a defaulting party can then belatedly invoke CCP § 430.90
ignore the filing deadline and their default and then get a 30 day
extension in time after the case is remanded for the Appellee(s) to
avail themselves of any of the aforementioned options. The notice
of removal must be timely filed within 30 days of receipt of
the initial complaint for the extension to apply. If, like in
this case where the notice was apparently errantly accepted on
the 45th day, the Notice of Remand should have automatically
been rejected and no extensions should be allowed because it was
already 15 days too late.

ONLY ONE PEREMPTORY CHALLENGE IS ALLOWED
Despite the original Judge Holly Fujie having essentially taken
no action or done anything for either party to reasonably question
her impartiality or fairness, an initial Peremptory Challenge was
filed on 7/16/19 and promptly denied but then a second untimely
Peremptory Challenge was filed a week later on 7/23/19 and even
though it was late and only one challenge is allowed, it was
errantly granted and Judge Green was then assigned.

15

The governing law under 170.6 states "If directed to the trial of a
civil cause that has been assigned to a judge for all purposes, the
motion shall be made to the assigned judge or to the presiding
judge by a party within 15 days after notice of the all purpose
assignment, or if the party has not yet appeared in the action, then
within 15 days after the appearance."

The case was assigned on 5/24/19 but Appellee(s) had failed to
appear until the 7/8/19 filing of the untimely Notice of Removal.
15 days from this appearance meant there was a 7/23/19 deadline
to file a challenge. The first challenge was arguably timely filed
on July 16, 2019 and so was within the 15 day deadline of the 15
days late Notice of Removal but in any event was denied on July
19, 2019. Although clearly past the 7/23/2019 deadline, the
second belated 170.6 Challenge was filed on 7/26/2019 and was
then improperly granted.

The court erred in granting the challenge because there can be
only one peremptory challenge (CCP § 170.6(a)(3) and it has to be
timely filed before the due date - not after! The second challenge
should never have been filed or granted and Judge Fujie who had
never taken any actions that would reasonably lead to a question
of her impartiality should never have been removed.

16

THE MOTION TO QUASH SHOULD HAVE BEEN DENIED
The Motion to Quash was void and should have never been filed
because the applicable 8/7/19 deadline had passed prior to it's
filing and also because Appellee(s) had previously made
numerous General Appearances thereby conceding to the court's
jurisdiction and waiving the right to all future arguments over
jurisdiction including motions to quash.

The governing law regarding motions to quash, CCP 418.10
states "a defendant on or before the last day of his or her time to
plead or within any further time that the court for good cause may
allow, may serve and file a notice of motion for one or more of the
following purposes (1) to quash service of summons on the ground
of lack of jurisdiction of the court".

The Appellee(s) were effectively served with the Summons at the
very latest on 7/8/19 when they appeared by filing the 15 day late
Notice of Removal which was rejected the next day on 7/9/19 over
a question of citizenship.

Appellee(s) argue that they had 30 days from the time the Notice
of Removal was remanded on 7/9/19 to file a timely response or

17

on or before 8/8/19 in which case their motion to quash was
timely filed on 8/8/19.

Appellant(s) argue that the 30 days to respond ran at the very
latest from the date the summons was effectively served on 7/8/19
when Appellee(s) filed the Notice of Removal. Appellant(s) also
argue that although the Notice of Removal was rejected the very
next day over citizenship issues, because it was filed 15 days past
the applicable deadline and should have never been accepted or
filed in the first place, it should not then upon it's rejection in
turn lead to a 30 day extension in the time to plead. The deadline
to plead should have been 30 days after the 7/8/19 service of the
summons or by 8/7/19 for the motion to quash to be timely but
the motion was not filed until 8/8/19.

Regardless of whether the motion to quash was timely filed or not
and regardless of the strength of any of it's arguments,
declarations or evidence, the motion was fatally flawed from the
outset and should have never been filed in the first place because
numerous General Appearances had already occurred prior to the
filing and these appearances meant that Appellee(s) conceded to
the courts jurisdiction.

18

The General Appearances included the 7/8/19 Notice of Removal,
7/16/19 Objection to Entry of Default, 7/16/19 Declaration,
7/16/19 First Peremptory Challenge and the 7/26/19 Second
Peremptory Challenge - All these General Appearances were
made prior to the 8/8/19 filing of the Motion to Quash and before
Appellee(s) apparently defaulted and then realized they might be
in the wrong jurisdiction!

Because of the Appellee(s)' numerous prior General Appearances
in Two Courts and before Two Judges it was simply too late to
argue jurisdictional issues because the jurisdiction of the court(s)
had already been conceded to. Appellant tried to mention this at
the hearing but was initially simply told to shush (page 2, line 11
of Reporter's Transcript

Judge Green stated that he did not think a Notice of Removal
constituted a General Appearance (page 3, line 19 of Reporter’s
transcript) but whether he is right or wrong, Appellant argued
that other prior General Appearances were in fact made before
two other Judges (page 3, line 13 of Reporter’s transcript). The
only time Appellee(s) identified an appearance as a "Special
Appearance" was on the actual belated Motion to Quash,
everything else prior constituted a General Appearance.

19

A General Appearance occurs when the responding party takes
part in the action or in some manner recognizes the authority of
the court to proceed. Such participation operates as consent to
the court’s exercise of jurisdiction in the proceeding and waives
all objections based on lack of personal jurisdiction, defective
process, or service of process and can occur simply by filing
responsive documents or an appearance in court. This is true
even where defendant expressly disclaims an intent to submit to
the court’s jurisdiction. See Neihaus v. Sup.Ct. (Vaillancourt)
(1977) 69 Cal.App.3d 340, 345 - in that case an answer contained
a statement that “defendant does not intend to subject his
person to the jurisdiction of this court”;_held general
appearance, objections waived.

If Defendant has previously demurred, answered or moved for a
transfer of the action, like in this case, there is no point in fifing a
motion to quash service. The previous pleading or motion
constitutes a General Appearance which waives any
jurisdictional objection whatsoever. A motion to quash service of
summons must be filed before any answer, demurrer or
other response is filed otherwise the defendant has waived
their right to object pursuant to Code of Civil Procedure section
418.10(e)(3).Filing must be made within 30 days of service of

20

summons or by 8/7/19 - Not 8/8/19.

"A general appearance by a party is equivalent to personal service
of summons on such party." (Code Civ. Proc., § 410.50, subd. (a).)
[8] The statutory list of acts constituting an appearance (id., §
1014 [filing an answer, demurrer, motion to strike, etc.]) is not
exclusive; "rather the term may apply to various acts which, under
all of the circumstances, are deemed to confer jurisdiction of the
person. [Citation.] What is determinative is whether defendant
takes a part in the particular action which in some manner
recognizes the authority of the court to proceed{Sanchez v.
Superior Court (1988) 203 Cal.App.3d 1391, 1397 [250 Cal.Rptr.
87] (Sanchez).)

When a general appearance is made, jurisdiction can be upheld
even in the absence of “minimum contacts” between the
nonresident and the forum state although there was significant
on-going contact in this case and as evidenced by the emails and
correspondence attached to the complaint. A nonresident who
appears in an action, either as plaintiff or defendant, thereby
submits to the court’s exercise of personal jurisdiction unless it is
a special appearance. A pleading, demurrer or motion by a
defendant that contests the merits of the action, or challenges the
complaint on other than jurisdictional grounds like occurred

21

numerous times in this case, including and aside from the Notice
of Removal, constitutes a General Appearance. It is equivalent
to personal service of summons on defendant for
jurisdiction purposes, see Hamilton v. Asbestos Corp., Ltd.
(2000) 22 Cal.4th 1127, 1147. Whether a defendant has made a
“general appearance” is a fact-specific issue. The determinative
factor is whether it “takes a part in the particular action which in
some manner recognizes the authority of the court to proceed.”
Hamilton v. Asbestos Corp., Ltd., supra, 22 Cal.4th at 1147; see
also Mansour v. Sup.Ct. (Eidem) (1995) 38 CalA.pp.4th 1750,
1756.

Although just a layman, it would seem to Appellant that Judge
Green's logic in arriving at his decision seems to contradict or
ignore the relevant rules and laws. At the outset of the hearing
on page one of the Reporter’s transcript, the Judge essentially
started by stating "This is a Motion to Quash service and a
Demurrer. We don't have to get to the Demurrer because I have
read the Motion to Quash service and I don't see any basis for
jurisdiction in California - I've read three declarations. Two of the
three are people in the 80's. One is 87. All three say they have no
contacts with California at all. A couple say they have had no
contacts with the Plaintiff since 2009."

22

As mentioned in Appellant(s) objection, the attachments in the
initial, timely complaint (page 36 -39, 42, 44, 45 of the Clerk’s
transcript), contains multiple examples of on-going
communication like emails, an un cashed check and a 2018
holiday card that completely contradict the declarations and as
already argued, jurisdiction had been conceded to by the
numerous prior General Appearances.

The Judge continued, " You know, you either have to have general
jurisdiction or specific jurisdiction. For general jurisdiction you
have to have substantial systematic contacts with the state of
California. For specific jurisdiction you have to have a purposeful
availment of the benefits and laws of the forum state in
California, and there has to be a connection between those
contacts and the injury complained of, and it has to lastly be fair,
just, and equitable. None of these booces are checked. Regardless, I
have no evidence of any of this stuff. Nobody presented me with
anything where I could check any of it. I have no evidence from
you. I just have evidence from the defense

Appellant would argue that the untimely evidence from the
defense that the Judge apparently heavily relied upon consisted
of obviously, blatantly perjurous declarations that were
completely contradicted by the evidence Appellant attached to

23

the initial complaint including the emails which are date
stamped and provide a factual, verifiable record of on-going
communication. Appellant mentioned in the initial complaint
that at one stage he did not want anymore contact with Appellee
Bertram and sent a text message asking Bertram to please stop
contacting him as he was no longer willing to satisfy his morbid
curiosity (page 13 of Clerk’s transcript). Also mentioned and as
per the emails, was the fact that after that, Appellee David came
to visit and the relationship was rekindled (also at the urging of
Francine Silver). At the time of recalling these facts in the initial
complaint, it would have been impossible for Appellant to have
known that the issue of jurisdiction would come up or, that in
blatant contrast to the verifiable emails, phone calls and other
evidence in the complaint, Appellee(s) would perjure themselves
by denying having had contact. If the case had been or is allowed
to go to trial, through discovery it would be blatantly clear that
the declarations are completely untrue.

Appellant would argue that every single one of the elements that
both Appellee(s) and Judge Green cited in their jurisdictional
arguments were satisfied even though they were belatedly
argued and not required. Appellee(s)' received purposeful
availment of the benefits and laws of the forum state here in
California, when as the emails and correspondence attached to

24

the initial complaint confirm, Appellee(s) contacted and visited
Appellant(s) here in California and made use of beaches, hotels,
restaurants and freeways etc. That more than satisfies the
element of purposeful availment. There is also an obvious
connection and relationship between those contacts and the
injuries complained of, in fact it is that very connection that
spawned the litigation in the first place.

Judge Green explained on page 2 of the reporter’s transcript
that for specific jurisdiction it must be fair, just and equitable.
The Judge went on to state "Can 1 call an 80 year old elderly
when I'm 72? Well regardless, they are elderly, and I see no basis
for dragging them across the country to be here".

Appellee(s) would hardly have to be dragged here because they
have access to private jets and are accustomed to first class travel
and also knew or should have known they could have been haled
into a California court for on going tortious acts intentionally
committed here in California.

Judge Green seems to overlook the fact that decedent Appellant
Francine was in her 90's and in poor physical, mental and
financial health. Had she not in at least in some part been

25

aggravated into an earlier death than otherwise might have been
expected, it would have been very unfair and inconvenient for her
to have had to travel, limp and hobble to New York with her
walker to adjudicate on-going torts that happened in California
and should be governed by California law.

The Judge also stated that for general jurisdiction you have to
have substantial systematic contacts with the state of California
and again as the correspondence in the attachment to the initial
complaint confirms, (page 36 -39, 42, 44, 45 of the transcript) this
and all the elements mentioned by the Judge and Appellee(s) for
both Specific and General jurisdiction were clearly met and
moreover jurisdiction was conceded to anyway by the numerous
prior General Appearances.

The United States Supreme Court has stated it has been
recognized since common law times that state courts may
exercise personal jurisdiction over nonresidents where certain
“traditional” bases for personal jurisdiction exist. See Burnham v.
Sup.Ct. (Burnham) (1990) 495 U.S. 604, 609, 110 S.Ct. 2105,
2110.

It is fair, just and equitable to receive justice in California for

26

t

torts that clearly occurred on an on-going perpetuated basis and
targeted residents here in California and furthermore,
Appellee(s) undoubtedly conceded to California's Jurisdiction by
making numerous General Appearances prior to filing the
untimely Motion to Quash. Appellant had every legal right to

t

keep the case within the jurisdiction of California.

For all of the aforementioned reasons the motion lacked
substance in every single one of it's arguments, was late, devoid
of merit and should have either been automatically rejected or
denied.

ji

THE MOTION AGAINST PUNITIVE DAMAGES IS MOOT
This Motion was not addressed by the Court and does not seem
like an issue. Appellee(s) failed to file a timely conforming
response and their default should be entered and the case settled
but in the event the case is remanded back to Superior Court for
trial, it should be up to a jury to decide whether the case has
merit or not and whether there is cause for punitive damages to
be awarded and if so for what amount.

THE DEMURRER WAS FATALLY DEFECTIVE
The court did not address the belated demurrer but even if

27

I

-

timely, Plaintiff adamantly denies there was a meet and confer
prior to the demurrer being filed and as required per the
California Rule 3.724 duty to meet and confer. This was argued
in Appellants(s)' combined objection to the demurrer and
motions, none* of the issues had ever been discussed so the
Deinurrer was fatally defective, late and devoid of merit . Code of
Civil Procedure § 430.40 states (a) A person against whom a

■

complaint or cross-complaint has been filed may, within 30 days
after service of the complaint or cross-complaint, demur to
the complaint or cross-complaint. Demurrers must be filed
within 30 days of service of Complaint (extensions do not
extend time to demurrer). The complaint was served on May
i»

22, 2019 so the demurrer had to be filed by June 21, 2019. Even
with an extra 10 days due to service by U.S. Priority Mail, the
rf

.

1

demurrer would have to have been filed before July 1, 2019 - Not
*’

.

i.

■'

-

8/8/19. Although the court did not address the belated demurrer,
» .* ~

it and all the arguments contained in it are void because amongst
*

'

]

other* • things including
their weakness, the deadline
to file had
*
1, *.
passed and there was no meet and confer.

THE JUDGE LACKED IMPARTIALITY AND SHOULD HAVE
RECUSED HIMSELF
In Appellant's reasonable layman opinion, Judge Green openly

!i

28.

J

expressed his bias and partiality when he stated as per the
Reporter's transcript page 2 line 17 "And purposeful availment,
there's no evidence of that. And as far as whether this would be
fair, just and equitable, we have New York residents, at least two
of whom are elderly. Can I call an 80-year old elderly when I’m
72P. well, regardless, they are elderly, and I see no basis for
dragging them across the country to be here."

The purposeful availment that Judge Green speaks of can occur
simply by using the freeway or sidewalk so it is hard to see how
Judge Green could find no evidence of purposeful availment when
it is blatantly clear by the emails and correspondence attached to
the Initial Complaint that the Appellee(s) visited Appellant(s)
here in California and availed themselves of the States resources.
Whether it is fair, just or equitable to "drag" Appellee(s) across
the country is a question that should have never been asked
because it had already been answered when the Appellee(s) made
General Appearances and conceded to California's jurisdiction
but even if they had not, it would seem fair, just and equitable to
hold them accountable in California for on-going torts committed
in California and irrespective of their age.

When Judge Green states "Can I call an 80-year old elderly when
I'm 72? well, regardless, they are elderly, and I see no basis for

29

dragging them across the country to be here.", the Judge is
overtly, expressing his bias for the Appellee(s) who the Judge
essentially explained are close to his age range. This is a
discriminating view point that is apparently based solely on
personal preference, sentiment and/or bias but not upon the
relevant governing rules, laws or facts upon which an impartial
decision should be made.

As far as the fairness of being "dragged" across the country goes,
the Appellee(s) had no trouble traveling to California in thenpast visits and also have access to private jets and stay in first
class hotels. The Appellee(s) live close to a local airport and there
is no waiting to check in or go through security at the airport so it
is hard to see why it would be that inconvenient for them to once
again make it to California or how they would be "dragged" here.

Judge Green seems to have overlooked that fact that decedent
Appellant Francine was in her 90's, in wrongful foreclosure
litigation, under financial stress, disabled, defrauded and in poor
health. Had she not been at least in some part aggravated into an
earlier death than otherwise would have been expected, it would
have been a huge inconvenience both physically and financially
for her to have to travel, limp, hobble, use her walker or literally
drag herself to New York where none of the torts had occurred

30

and after the Appellee(s) had already defaulted and made
numerous General Appearances in this jurisdiction.

The 2020 California Rules of the Court duty to prohibit bias
states: (a) To preserve the integrity and impartiality of the
judicial system, each judge should: (1) Ensure fairness and that
courtroom proceedings are conducted in a manner that is fair and
impartial to all of the participants. (Regardless of age)

(2) Refrain from and prohibit biased conduct and in all courtroom
proceedings, refrain from engaging in conduct and prohibit others
from engaging in conduct that exhibits bias, including but not
limited to bias based on disability, gender, race, religion,
ethnicity, and sexual orientation, whether that bias is directed
toward counsel, court personnel, witnesses, parties, jurors, or any
other participants.

(3) Ensure unbiased, impartial decisions. “Impartial,”
“impartiality,” and “impartially” mean the absence of bias or
prejudice in favor of, or against, particular parties or classes of
parties, as well as the maintenance of an open mind in
considering issues that may come before a judge. See Canons 1.
A judge shall respect and comply with the law and shall act at all

31

times in a manner that promotes public confidence in the
integrity and impartiality of the judiciary. A judge shall not
make statements, whether public or nonpublic, that commit the
judge with respect to cases, controversies, or issues that are likely
to come before the courts or that are inconsistent with the
impartial performance of the adjudicative duties of judicial office.
A judge must also be mindful of Canon 2A, which requires a
judge to act at all times in a manner that promotes public
confidence in the integrity and impartiality of the courts. If the
Judge discriminates on the basis of age then he or she is clearly
not impartial and should recuse him or herself from the case.

When the impartiality of the Judge might reasonably be
questioned" under 28 U.S.C.A. 455(a), the court in Fong v
American Airlines, Inc. (1977, DC Cal) 431 F Supp 1334, held
that the legislative history of 28 U.S.C.A. 455(a) left no doubt
that Congress intended to adopt an objective standard, as
opposed to the judge's own opinion of his impartiality, or
lack there of. Quoting the House Report, the court stated that
disqualification for lack of impartiality must have a reasonable
basis (such as age discrimination). And, added the court,
decisions rendered since the adoption of the 1974 amendment to
455(a) confirmed that the charge of lack of impartiality must be
grounded on facts which would create a reasonable doubt

32

DEFAULT JUDGMENT SHOULD HAVE BEEN ENTERED
Whether or not Judge Green lacked impartiality and whether or
not any of the other arguments and pleadings made by
Appellee(s) have any degree of merit should be moot because
Appellee(s), despite unlimited financial resources, in house legal
counsel, valid legal service and representation by a prestigious
international law firm still clearly defaulted by not fifing a single
timely, conforming response to either the Initial Complaint or
Summons and their default should be entered in the full amount
of ten million dollars plus interest from the time of their 8/7/19
default until the claim is finally paid.

The deadline to file a Notice of Removal or Demurrer is not the
same as a written response to a summons. The time to file a
demurrer occurs 30 days after service of the Initial Complaint.
CCP 430.409(a) governs demurrers and states "Absent an
extension of time, a defendant must file a demurrer to a complaint
within 30 days after service of the complaint". The Initial
Complaint was mailed US Priority Mail on 5/22/19 and
admittedly received on 5/24/19. This resulted in deadline to file a
Demurrer of no later than 6/23/19 but the Demurrer was not filed
until 8/8/19 - Too late!

The deadline to file a Notice of Removal was 30 days after receipt

34

of the Complaint. The Complaint was mailed by US Priority Mail
on 5/22/19 and Appellee(s) admit receiving it on 5/24/19 which
resulted in 6/23/19 deadline but the Notice of Removal was not
filed until 7/8/19 which was 15 days past the deadline - Too Late!

The Motion to Quash was not filed until 8/8/19 and after
Appellee(s) had already made numerous General Appearances,
however, a motion to quash service of summons must be filed
before any answer, demurrer or other response is filed
otherwise the defendant has waived their right to object pursuant
to Code of Civil Procedure section 418.10(e)(3), the motion must
be filed within 30 days of service and complaint. Appellee(s) first
appearance was made on 7/8/19 with the 15 day late filing of the
Notice of Removal.

A pleading, demurrer or motion by a defendant that contests the
merits of the action, or challenges the complaint on other than
jurisdictional grounds like occurred numerous times in this case,
including and aside from the Notice of Removal, constitutes a
General Appearance. It is equivalent to personal service of
summons on defendant for jurisdiction purposes, see
Hamilton v. Asbestos Corp., Ltd. (2000) 22 Cal.4th 1127, 1147. By
filing the Notice of Removal, a General Appearance clearly
occurred and Appellant(s) were also effectively served, at the very

35

latest by this date and any written response was due within 30
days or by no later than 8/7/19. Appellant(s) failed to file a
response until the untimely 8/8/19 filing of the Motion to Quash,
Demurrer and Motion to Strike Punitive Damages, again - All too
late!

Appellee(s) have consistently failed to file timely, conforming
responses. The Notice of Removal, Second Peremptory Challenge,
Demurrer, Declarations and Motions were all unquestionably
late and absent of excusable neglect, a late response is as good as
no response and is a waiver of future arguments. Because the
arguments have been conceded to, there is nothing for a trial
court to decide other than whether punitive damages are
warranted and if so for how much.

An entry of default and default judgment should be granted in
the full claim amount of ten million dollars plus statutory
interest from the 8/7/19 default until the claim is finally paid.

DUE PROCESS WAS DENIED
Appellant(s) should be entitled to due process of the law and fair,
just, equal treatment. The rules, laws and deadlines that the

36

court and its officers are charged with upholding should be
enforced fairly, equally, universally and justly instead of being
ignored. Appellee(s) have been allowed to file a late Notice of
Removal, two Peremptory Challenges with the first being
arguably late and denied but the second definitely late and also
defective but errantly allowed even though only one peremptory
challenge can be made. The result of the second defective
challenge was that Judge Green was assigned to the case and as
previously discussed he overtly expressed his lack of impartiality,
there was an abuse of discretion and the Judge should have never
been assigned to the case in the first place and once assigned, he
should have recused himself due to his stated partiality for
similarly aged litigants.

Due Process is rooted in the foundation of our judicial system and
is so important that it is mentioned both in the Fifth and
Fourteenth Amendment. The Fifth Amendment says to the
federal government that no one shall be "deprived of life, liberty
or property without due process of law." The Fourteenth
Amendment, ratified in 1868, uses the same eleven words, called
the Due Process Clause, to describe a legal obligation of all
states. The Fourteenth Amendment Section 1 states "All persons
born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the

37

state wherein they reside. No state shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of life,
liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws."
Because Appellant(s) apparently did not receive equal protection
of the laws and deadlines were ignored by the court, instead of
Appellee(s) default being entered or a trial date set, the Motion to
Quash was unfairly granted despite the numerous prior General
Appearances and Appellant(s) were clearly denied due process.

CONCLUSSION
Despite essentially unlimited resources, Appellee(s) have
defaulted by consistently failing to file timely, conforming
responses and have thereby conceded to Appellant(s) arguments
and waived their rights to future arguments. The Notice of
Removal was 15 days too late and everything Appellee(s) filed
after that date was also too late and therefore void.

The Superior Court ruled errantly in granting the Motion to
Quash because it was filed late and jurisdiction had already been
conceded to by Appellee(s) numerous General Appearances prior

38

I

To filing the Motion to Quash. The decision should be reversed,
Default Judgment should be entered and granted for the full
claim amount of ten million dollars plus statutory interest from
the 8/7/19 default date until the claim is finally paid or else the
case should be remanded back to Judge Holly Fujie from whose
jurisdiction it should have never left in the first place and a trial
date should be set but due to Appellee(s) consistent failure to file
timely responses, it would seem Appellant’s arguments have been
conceded to and the only issue for a trial court to determine
would be whether or not to award punitive damages and if so in
what amount.

Respectfully,

Marcus Silver

39

A

